A '

Of U'S ^OtAGUtf*

21-20122

+ CtAcutf* aJ&^T

Mr. Patrick Charles
2507 East Highway 97
Pleasanton, TX 78064

INDEX TO APPENDICES

APPENDIX A

------------ DECISION OF THE UNITED STATES COURT OF APPEALS
FOR THE 5th CERCUIT.

APPENDIX B. + COPY OF DECISION OF COURT OF APPEAL FOR THE FIFTH CIRCUIT, STATING THE
DEFENDANTS OBJECTED TO DOSSMAL OF THE CASE AND GREATED THE APPEAL------------------APPENDIX B. DECISION

FROM THE U S DISTRICT COURT OF THE SOUTHERN DISTRICT

APPENDIX C
HE
APPENDIX C. COPY OF U.S DISTRICT COURT JUDGE RENDERING JUDGMENT IN CASE EVEN
LOST JURISDICTION IN THE CASE , CASE WAS CLOSED TO HIM , BECAUSE AN APPEAL WAS MADE TO THE
US CIRCUIT OF THE 5th CIRCUIT .
APPENDIX D. COPY OF DEFENDANT U. S BANK DEMANDING PAYMENT FROM PLAINTIFF FOR A DEBT NOT
OWED, NO CONTRACTUAL AGREEMENT WITH THE BANK- VIOLATION OF THE FAIR DEBT COLLECTION
ACT.
E. . APPENDIX F COPY OF DEED SHOWING PLAINTIFF OWED THE PROPERTY
APPENDIX F. COPY INSTRUMENT FROM FORTBENT APPRASAL DIS TRICT DISPUTING HOUSE VALUAAPPENDIX G COPY OF JUDGMENT FROM PRECINT2 SHOWING THATJUDGMENT WAS AGAINST RALPTH
BROOWN NOT PATRICK CHARLES , BUT APPELLANT WAS PUT OUT FROM HIS BROPERTY FOR A DEBT
NOT OWED-------------------------- -------------------------------------------------------------------------------------------APPENDIX H , COPY OF DEED, SHOWING THAT PLAINTIFF OWNED THE PROPERTY 507 SANDY WALK
STAFFORD TEXAS----------------------------------------------------------------------------------------------------------APPENDIX I . COPY OF INSURANCE AND TAXES PAID BY PLAINTIFF AND ENO OBASOGIE

UnitedStutesGouriof-Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

June 28, 2021

MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW:
No. 21-20122

Charles v. Caliber Home Loans
USDC No. 4:19-CV-3359

Enclosed is an order entered in this case.

Sincerely,
LYLE W. CAYCE, Clerk
'^6fUMj-'

By:
Rebecca L. Leto,Deputy Clerk
504-310-7703
Ms.
Mr.
Mr.
Mr.

Lauren Beverly
Patrick Charles
Nathan Ochsner
Jeremy Jason Overbey

Case: 21-20122

Document: 00515916826

Page: 1

Date Filed: 06/28/2021

Unite!) States Court of appeals:
for tfje JfiftJ) Circuit
United States Court of Appeals
Fifth Circuit

FILED

No. 21-20122

June 28, 2021
Lyle W. Cayce
Clerk

Patrick Charles

Plaintiff—Appellant,
versus
Caliber Home Loans; U.S. Bank Trust, N.A., as Trustee
for LSF9 Master Participation Trust,
Defendants—Appellees.

Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:19-CV-3359

Before Jones, Costa, and Wilson, Circuit Judges.
Per Curiam:
On August 29,2019, Plaintiff filed the underlying complaint, claiming
wrongful eviction. On September 13, 2019, Defendants filed a motion to
dismiss. After the parties briefed the motion, a magistrate judge held oral
argument and converted it into a Rule 56 motion for summary judgment. The
magistrate later entered a memorandum and recommendation,
recommending that the district judge grant Defendants ’ motion for summary
judgment. On July 29,2020, the district court entered an order adopting the
memorandum and recommendation, granting Defendants ’ motion to dismiss

Case: 21-20122

Document: 00515916826

Page: 2

Date Filed: 06/28/2021

No. 21-20122

as converted into a motion for summary judgment. On August 3, 2020,
Plaintiff failed a motion to vacate the order. And on December 22, 2020, the
district court denied plaintiff's motion to vacate.
Construing Plaintiff’s motion to vacate as a motion to alter or amend
the district court’s judgment, Plaintiff was required to file a notice of appeal
by January 21, 2021, z.&, 30 days after the entry of the district court’s order
denying his motion to vacate. See Fed. R. App. P. 4(a)(4)(A)(iv).
However, Plaintiff did not do so until January 25, 2021, when he filed a
“Certificate of Service,” which included a pleading addressed to the United
States Court of Appeals for the Fifth Circuit and titled “Appeal from the
United States Court for the Southern District of Texas.” Even considering
this document as Plaintiff’s notice of appeal, Plaintiff did not file his notice
within 30 days of the entry of the district court’s order on his motion to
vacate. Accordingly, we lack jurisdiction over this appeal, and the appeal
must be dismissed. Bowles v. Russell, 551 U.S. 205,213-14 (2007).
IT IS ORDERED that^Defendarits’ opposed motion to dismiss the

2

Case 4:19-cv-03359 Document 38 Filed on 12/22/20 in TXSD Page 1 of 3
United States District Court
Southern District of Texas

ENTERED
December 22, 2020
David J. Bradley, Clerk

United States District Court
Southern District of Texas
Houston Division
PATRICK CHARLES,
Plaintiff,

§ Civil Action No.
§ 4:19-cv-03359

§
§

§ Judge Charles Eskridge

vs.

§
§
CALIBER HOME LOANS
and US TRUST NA,
Defendants.

§

§

Order Denying Motion to Vacate
The motion by Plaintiff Patrick Charles to vacate the order
adopting the memorandum and recommendation of the
Magistrate Judge is denied. Dkt 36.
This case was referred to Magistrate Judge Sam Sheldon. He
recommended that the motion for summary judgment by
Defendants Caliber Home Loans and U.S. Bank Trust, National
Association be granted and that the claims by Charles in this case
be dismissed with prejudice. Dkt 34. None of the parties filed an
objection. The memorandum and recommendation was then
adopted as the Memorandum and Order of this Court. Dkt 35.
Charles proceeds in this action pro se. He now moves to
vacate the adopting order. He doesn’t specify a procedural basis
to do so.
A movant can base a motion to vacate on either Rule 59(e)
or Rule 60(b) of the Federal Rules of Civil Procedure. Where the
motion fails to specify its procedural basis, the applicable rule
“turns on the time at which the motion is served.” United States v
Clark, 2012 WL 3528013, *1 (SD Tex), quoting Uavaspere v
Niagara Machine & Tool Works, Inc, 910 F2d 167, 173 (5th Cir
1990), abrogated on other grounds by Tittle v TiquidAir Corp, 37
F3d 1069, 1076 n 14 (5th Cir 1994). A motion under Rule 59(e)
must be filed within twenty-eight days of the entry of judgment,

Case 4:19-cv-03359 Document 38 Filed on 12/22/20 in TXSD Page 2 of 3

while one under Rule 60(b) must-be brought “within a reasonable
time,” per Rule 60(c). Where the movant files a motion to vacate
or reconsider within twenty-eight days of the entry of judgment
but fails to specify the procedural basis, it is typically construed
as one asserted under Rule 59(e). Clark, 2012 WL 3528013 at *1.
Charles filed the instant motion five days after entry of the
order adopting the recommendation of the Magistrate Judge. It
is thus construed as one filed under Rule 59(e).
Rule 59(e) doesn’t specify grounds that support a motion to
alter or amend. See Charles Alan Wright and Arthur R. Miller,
Federal Practice and Procedure § 2810.1 (West 3d ed 1999 October
2020 update). But in general, the motion must “clearly establish
either a manifest error of law or fact or must present newly
discovered evidence . . . .” United States v $30,000.00 in United
States Currency, 2012 WL 5456172, *1 (SD Tex) (citations
omitted). Such a motion is “not the proper vehicle for rehashing
evidence, legal theories, or arguments that could have been
offered or raised before the entry of judgment.” Templet v
HydroChem Inc, 367 F3d 473, 478—79 (5th Cir 2004) (citation
omitted); see also Wright and Miller, Federal Practice and Procedure
§2810.1.
The primary argument raised by Charles is that he was
entided to a jury trial. Dkt 36 at 1—2. He notes that his motion
for a jury trial was granted. See Dkt 7; Minute Entry of
02/05/2020. He argues that granting summary judgment in such
posture violates due process and the Seventh Amendment. He
also objects to the authority Magistrate Judge and again raises
several arguments that he asserted in the motion to dismiss
briefing. Dkt 36 at 2-4.
Charles could have raised these arguments before, either in
the briefing on the motion for summary judgment or in an
objection to the recommendation by the Magistrate Judge. He
didn’t. He provides no reason for that failure. And he identifies
no manifest error of law or fact that would justify relief. As such,
relief under Rule 59(e) is inappropriate and must be denied.
The objections also lack merit. The right to jury trial in no
way diminishes the authority of a district court to enter summary
judgment when the Rule 56 standard is met. Plaisance v Phelps, 845

2

Case 4:19-cv-03359 Document 38 Filed on 12/22/20 in TXSD Page 3 of 3

F2d 107,108 (5th Cir 1988) (citation omitted). Simply put, where
there is no dispute of material fact for the jury to decide, summary
judgment is appropriate upon showing of entidement to
judgment as a matter of law. The Magistrate Judge likewise had
lawful authority to decide and make recommendations on referral
in this matter. See generally 28 USC § 636(b)(1).
The motion by Plaintiff Patrick Charles to vacate the order
adopting the memorandum and recommendation is DENIED.
Dkt 36.
Charles may take appeal of this order to the United States
Court of Appeals for the Fifth Circuit to the extent provided for
by law.
SO ORDERED.

Signed on December 22, 2020 at Houston, Texas.

Qu (2 fcuygHon. Charles Eskridge
|
United States District Judge

3

Case 4:19-cv-03359 Document 35 Filed on 07/29/20 in TXSD Page 1 of 2
United States District Court
Southern District of Texas

ENTERED
July 29, 2020
David J. Bradley, Clerk

United States District Court
Southern District of Texas
Houston Division
PATRICK CHARLES,
Plaintiff,

§
§

§
§
vs.

CALIBER HOME
LOANS and VS TRUST
NA, TRUSTEE, LSF9 AS
MASTER
PARTICIPATION
TRUST,
Defendant.

§

CIVIL ACTION NO.
4:19-cv-03359

Judge Charles Eskridge

§
§
§
§
§

§
§
§
§

Order Adopting
Memorandum and Recommendation
Before the Court is the Memorandum and Recommendation
signed by the Magistrate Judge on July 13, 2020. Dkt 34. He there
denied a motion for default judgment by Plaintiff Patrick Charles.
Dkt 12. He also granted a motion to dismiss all claims by
Defendants Caliber Home Loans and US Bank Trust NA,
Trustee, LSF9 as Master Participation Trust. Dkt 10. In doing so,
the Magistrate Judge converted the motion to dismiss into one
for summary judgment. Dkt 34 at 3.
No party filed any objection. In such posture the Court need
only determine whether clear error appears on the face of the
record in order to accept the Memorandum and
Recommendation. See Guillory v PPG Industries Inc, 434 F3d 303,
308 (5th Cir 2005), citing Douglass v United Services Automobile
Association, 79 F3d 1415,1420 (5th Cir 1996); see also FRCP 72(b)
Advisory Comm Note (1983).

Case 4:19-cv-03359 Document 35 Filed on 07/29/20 in TXSD Page 2 of 2

The Court has reviewed the pleadings, the record, and the
applicable law. No clear error appears in the Memorandum and
Recommendation.
The Memorandum and Recommendation is ADOPTED as the
Memorandum and Order of this Court. Dkt 34.
The motion for default judgment is DENIED. Dkt 12.
The motion to dismiss as converted into a motion for
summary judgment is GRANTED. Dkt 10.
The claims against Caliber Home Loans and US Bank Trust
NA, Trustee, LSF9 as Master Participation Trust are DISMISSED
WITH PREJUDICE.
SO ORDERED.

Signed on July 29, 2020, at Houston, Texas.

Cu (l OLfysHon. Charles Eskridge
•
United States District Judge

2

Case 4:19-cv-03359 Document 34 Filed on 07/13/20 in TXSD Page 1 of 12
United States District Court
Southern District of Texas

ENTERED
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
PATRICK CHARLES
VS.

§
§
§
§
§

July 13, 2020
David J. Bradley, Clerk

CIVIL ACTION NO. 4:19-CV-3359

CALIBER HOME LOANS AND
U.S. BANK TRUST N.A., TRUSTEE, LSF9 §
AS MASTER PARTICIPATION TRUST
§

MEMORANDUM AND RECOMMENDATION
Pending before the Court is Defendants Caliber Home Loans (“Caliber”) and U.S. Bank
Trust N.A., Trustee, LSF9 as Master Participation Trust’s (“U.S. Bank Trust”) Motion to
Dismiss. (Dkt. No. 10.) Defendants argue that Plaintiffs claims should be dismissed in their
entirety. Plaintiff opposes the motion, arguing that he was not a party to the loan contract and did
not owe the mortgage debt that led to foreclosure and eviction. (Dkt. No. 17 at 1-2.) The District
Judge referred the entire case to the Magistrate Judge for full pretrial management pursuant to 28
U.S.C. § 636(b)(1)(A) and (B) and Federal Rule of Civil Procedure 72. (Dkt. No. 20.)
Plaintiff, pro se, filed this action August 29, 2019, seeking “monetary relief over 20
million dollars not more than 21 million[.]” (Dkt. No. 1 at 2.) Defendants were served the
complaint September 3, 2019. (Dkt. No. 4.) On September 23, 2019, Defendants filed a motion
to dismiss, which they supported with evidence. (Dkt. No. 10.) Plaintiff responded to the motion
twice, attaching numerous exhibits to both briefs. (Dkt. Nos. 17, 24.) Defendants filed a reply to
each of Plaintiffs responses. (Dkt. Nos. 18, 25.) On October 21, 2019, Plaintiff filed a Motion
for Default Judgment. (Dkt. No. 12.)
On February 5, 2020, the Court held a hearing and, in addition to making rulings on
multiple other motions filed by Plaintiff, the Court denied Plaintiffs Motion for Default

1 / 12

Case 4:19-cv-03359 Document 34 Filed on 07/13/20 in TXSD Page 2 of 12

Judgment. (Dkt. No. 29.) The Court also notified the parties that it was converting Defendants’
Motion to Dismiss into a Motion for Summary Judgment pursuant to Federal Rule of Civil
Procedure 12(d). (Dkt. No. 29.)
The Court later indicated that it intended to enter the ruling on Plaintiffs Motion for
Default Judgment as a recommendation. (Dkt. No. 32 at 2 n.7.) To clarify the record and for the
reasons stated below, the undersigned now recommends that the District Judge DENY Plaintiffs
Motion for Default Judgment. After considering the parties’ briefs, the summary judgment
evidence, and relevant legal authority, the Magistrate Judge recommends that the District Judge
GRANT Defendants’ Motion for Summary Judgment.
I. Plaintiffs Motion for Default Judgment
Federal Rule of Civil Procedure 55(a) allows for the entry of default “[w]hen a party
against whom a judgment for affirmative relief is sought has failed to plead or otherwise
defend[.]” “Default judgment generally means a judgment entered by the Court as a penalty
against a party for failure to appear or otherwise to perform a procedurally required act.” Fodge
v. Trustmark Nat’l Bank, 945 F.3d 880, 882 n.l (5th Cir. 2019) (internal quotation marks
omitted) (quoting Anchorage Assocs. v. VI. Bd. of Tax Review, 922 F.2d 168, 174 n.3 (3d Cir.
1990), and citing Fed. R. Civ. P. 55(a)). The Court should not impose the “drastic remedy”
except in “extreme situations.” Lewis v. Lynn, 236 F.3d 766, 767 (5th Cir. 2001) (quoting Sun
Bank of Ocala v. Pelican Homestead & Sav. Ass’n, 874 F.2d 274, 276 (5th Cir. 1989)).
Generally, an answer is due within twenty-one days of receiving the summons and
complaint. See Fed. R. Civ. P. 12(a)(l)(A)(i). However, a properly filed motion to dismiss for
failure to state a claim postpones the deadline for filing an answer until fourteen days after notice
of the court’s ruling if the motion is denied. See Fed. R. Civ. P. 12(a)(4)(A), (b)(6).

2/12

Case 4:19-cv-03359 Document 34 Filed on 07/13/20 in TXSD Page 3 of 12

Plaintiff argues that Defendants did not timely file an answer. In this case, Defendants
were served with summonses and the complaint on September 3, 2019. (Dkt. No. 4.)
Accordingly, as noted on the docket sheet, Defendants’ answers were due September 24, 2019.
(Id.) On September 23, 2019, in lieu of an answer, Defendants filed a Motion to Dismiss for
failure to state a claim, thereby timely responding to Plaintiffs complaint. (Dkt. No. 10.)
Defendants were not required to file an answer because they filed a Motion to Dismiss. Thus,
they did not fail to plead or otherwise defend this action. In other words, they did not default.
II. Defendants’ Motion for Summary Judgment
The Court converted Defendants’ Motion to Dismiss to a Motion for Summary Judgment.
Accordingly, the Court reviews the motion under the summary judgment legal standard.
A. Legal Standard
Federal Rule of Civil Procedure 56(a) instructs the Court to “grant summary judgment if
the movant shows that there is no genuine dispute as to any material fact and the movant is
entitled to judgment as a matter of law. See also Nall v. BNSF Ry. Co., 917 F.3d 335, 340 (5th
Cir. 2019). The movant is tasked with the initial burden of informing the Court of the basis for
the motion and pointing to relevant excerpts in evidence that demonstrate the absence of genuine
factual issues. See Coastal Agric. Supply, Inc. v. JP Morgan Chase Bank, N.A., 759 F.3d 498,
505 (5th Cir. 2014) (quoting Celotex Corp. v. Catrett, All U.S. 317, 323 (1986)). The movant
may also argue that the nonmovant failed to produce evidence in support of at least one element
of a cause of action for which he bears the burden of proof. See Austin v. Kroger Tex., L.P., 864
F.3d 326, 335 (5th Cir. 2017).
If the movant satisfies the initial burden, it shifts to the nonmovant who must produce
evidence of a genuine factual dispute; he may not merely rest on the allegations in his pleading.

3/12

Case 4:19-cv-03359 Document 34 Filed on 07/13/20 in TXSD Page 4 of 12

See Coastal Agric. Supply, Inc., 759 F.3d at 505 (quoting Boudreaux v. Swift Transp. Co., 402
F.3d 536, 540 (5th Cir. 2005)). In reviewing a motion for summary judgment, the Court bears the
responsibility of taking the nonmovant’s evidence as true and drawing all reasonable inferences
in his favor. Id. (quoting Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 255 (1986)). But the
Court should not accept “[unsubstantiated assertions, improbable inferences, [or] unsupported
speculation” as sufficient to carry the nonmovant’s burden. Brown v. City of Houston, Tex., 337
F.3d 539, 541 (5th Cir. 2003). “When opposing parties tell two different stories, one of which is
blatantly contradicted by the record, so that no reasonable jury could believe it, the Court should
not adopt that version of the facts for purposes of ruling on a motion for summary judgment.”
Scott v. Harris, 550 U.S. 372, 380 (2007).
B. Evidence of Record
In April 1998, Ralph Thelton Brown (“Brown”) purchased the property at 507 Sandy Walk,
Stafford, Texas, 77477 (“Property”). (Dkt. No. 10, Ex. 1.) The Property was in the Promenade at
Stafford Run (“Promenade”), a single-family-home residential community in Fort Bend County.
(Dkt. No. 10, Exs. 1, 2) Pursuant to a Declaration of Covenants and Restrictions (“Declaration”),
properties in the Promenade were subject to various assessments. (Dkt. No. 10, Ex. 2.) The
Declaration secured payment of the assessments through liens that were subordinate and inferior
to any lien pursuant to a mortgage, among other types of liens. (Id.)
In August 2007, Household Finance Corporation III secured a home equity loan to Brown
in the amount of $132,699.56 with a lien pursuant to a mortgage. (Dkt. No. 10, Ex. 3.) In 2013,
Brown failed to stay current on maintenance assessments, prompting the homeowners’
association (“HOA”) of the Promenade to file suit. (Dkt. No. 10, Exs. 4, 10.) The HOA obtained
a default judgment against Brown in the amount of $3,776.08. (Dkt. No. 10, Ex. 11.) In June

4/12

Case 4:19-cv-03359 Document 34 Filed on 07/13/20 in TXSD Page 5 of 12

2014, Brown’s property was sold at a constable’s sale for $4,500. (Dkt. No. 10, Exs. 5, 12.) Eno
Obasogie purchased the property and, in July 2015, conveyed the property to Hillary Udoete
(Dkt. No. 10, Exs. 5, 6.)
In September 2016, Household Finance Corporation III assigned its lien on the Property
to U.S. Bank Trust. (Dkt. No. 10, Ex. 7.) In November 2017, Plaintiff purchased the Property
from Hillary Udoete. (Dkt. No. 17, Exs. 1 (unnumbered), 7.) In March 2018, the 268th Judicial
District Court of Fort Bend County issued a Home Equity Foreclosure Order. (Dkt. No. 10, Ex.
9.) Shortly thereafter, U.S. Bank Trust purchased the Property for $193,195.06 at the foreclosure
sale. (Id.)
In May 2018, Eno Obasogie, as conservator for Hillary Udoete, executed a document
entitled “DISCHARGE OF MORTGAGE,” which stated in part, “LIENS AND DEBTS Are All
Fully: Satisfied And Discharged, And That The Mortgage Is Fully And Forever Released From
the Property[.]” (Dkt. No. 17, Ex. 18, Dkt. No. 24, Ex. 8.) Eno Obasogie also signed a document
entitled “RELEASE OF MORTGAGE,” which stated in part that the Brown mortgage “together
with the debt secured by said mortgage^ and all other[] liens/debt etc[.] has been full paid,
satisfied, released, and discharged[] and that the [Property . . . has been released from the lien of
such mortgage.” (Dkt. No. 24, Ex. 8.) Eno Obasogie further “APPOINTfed] and Directed] the
Register Of Deeds Of [FORT[ ]BEND] County as TRUSTEE To Discharge and Cancel,
RELEASED any and All Debts Attached] To THIS PROPERTY ON Record[.] (IdJ
In July 2018, the attorney for U.S. Bank Trust sent a notice to vacate addressed to Brown
and/or all occupants of the Property. (Dkt. No. 10, Ex. 13.) In August 2018, the Justice of the
Peace, Precinct 2 of Fort Bend County issued a judgment in U.S. Bank Trust’s favor for
possession of the Property. (Dkt. No. 10, Ex. 14, Dkt. No. 17, Ex. 1 (unnumbered).) On

5/12

Case 4:19-cv-03359 Document 34 Filed on 07/13/20 in TXSD Page 6 of 12

September 17, 2018, a deputy constable posted a notice to vacate on the front door of the
Property, which ordered Plaintiff to vacate by September 19, 2018. (Dkt. No. 24, Ex. 4.) On
September 18, 2018, Plaintiff filed a voluntary petition for bankruptcy. (Dkt. No. 10, Ex. 15.)
The following day, U.S. Bank Trust filed a motion for relief from the automatic bankruptcy stay
in order to permit eviction. (Dkt. No. 10, Ex. 17.) As reflected on the attached certificate of
conference, U.S. Bank Trust’s attorney attempted to confer with Plaintiff and, being unable to
reach him, left a voicemail. {Id.) On October 4, 2018, the U.S. Bankruptcy Judge dismissed
Plaintiffs bankruptcy case for failure to comply with a deficiency order. (Dkt. No. 10, Ex. 18.)
On October 11, 2018, a deputy constable served a notice to vacate by October 13, 2018.
(Dkt. No. 24, Ex. 4.) On October 17, 2018, an officer executed the Writ of Possession issued by
the Justice of the Peace, Precinct 2 of Fort Bend County and evicted Plaintiff from the Property.
(Dkt. No. 10, Ex. 19, Dkt. No. 17, Ex. 1 (unnumbered).) All of Plaintiff s personal property was
placed outside in the rain and was looted and destroyed. (Dkt. No. 17, Ex. 1 (unnumbered).)
C. Analysis
Defendants’ overarching argument is that the mortgage lien securing Brown’s home
equity loan was not extinguished by the 2014 constable’s sale of the Property to Eno Obasogie
because the mortgage lien was superior to the HOA’s lien. Thus, Plaintiff purchased the Property
subject to U.S. Bank Trust’s lien. Accordingly, U.S. Bank Trust was entitled to enforce the lien
against the Property through foreclosure and eviction. At the core of Plaintiffs argument is the
incorrect assertion that, because he was not debtor on Brown’s home equity loan, the lien
securing that loan was not enforceable against the Property after Brown no longer owned it. The
undisputed evidence supports Defendants’ position.
The evidence demonstrates that the HOA’s lien for the nonpayment of assessments was

6/12

Case 4:19-cv-03359 Document 34 Filed on 07/13/20 in TXSD Page 7 of 12

inferior to any mortgage lien. The HOA’s foreclosure on the Property extinguished only its lien,
and the superior mortgage lien remained, securing payment of the home equity loan. See Kenneth
D. Eichner, P.C. v. Dominguez, NO. 14-18-00399-CV, 2020 WL 1026430, at *4 n.2 (Tex.
App.—Houston [14th Dist.] Mar. 3, 2020, pet. filed)(citing Atu v. Slaughter, No. 14-06-00771CV, 2007 WL 2682198, at *3 (Tex. App.—Houston [14th Dist.] Sept. 13, 2007, no
pet.)(“[F]oreclosure does not terminate interests in the foreclosed real estate that are senior to the
mortgage being foreclosed.”).
Although Plaintiff does not challenge the validity of the original mortgage lien imposed
on the Property to secure Brown’s home equity loan, he submitted documents signed by Eno
Obasogie purporting to discharge and/or release that mortgage lien. Plaintiff failed to produce
any evidence that U.S. Bank Trust assigned the lien to either Eno Obasogie or Hillary Udoete.
That is, Plaintiff failed to demonstrate that the mortgage lien securing Brown’s home equity loan
was either of theirs to discharge and/or release. To be perfectly clear, the fact that Plaintiff was
not the borrower on Brown’s home equity loan is irrelevant to this case. What matters is that the
mortgage lien on the Property for the home equity loan survived Plaintiffs purchase of the
Property in 2017. Ultimately, Plaintiffs failure to present evidence that raises a fact dispute as to
the survival of the lien dooms Plaintiffs entire case. Nevertheless, the Court addresses each of
the causes of action to which Plaintiff at the very least alluded in his complaint.
As the Court understands Plaintiffs complaint, read as broadly as possible, Plaintiff
alleged the following claims: (1) wrongful foreclosure; (2) wrongful eviction; (3) violation of the
Fair Debt Collection Practices Act (“FDCPA”); (4) trespass; (5) invasion of privacy; (6)
violation of Texas Penal Code § 22.04; (7) violation of the automatic stay in bankruptcy; (8)
conversion; (9) negligence; and (10) violation of a constitutional right. In briefing on the pending

7/12

Case 4:19-cv-03359 Document 34 Filed on 07/13/20 in TXSD Page 8 of 12

dispositive motion, Plaintiff also accused Defendants of fraud. Because Plaintiff did not plead
fraud as a cause of action, it is not before the Court. Moreover, Plaintiff failed to plead, much
less produce evidence of, any fraudulent conduct.
1. Wrongful Foreclosure
Under Texas law, a plaintiff asserting a cause of action for wrongful foreclosure must
prove the following: “(1) a defect in the foreclosure sale proceedings; (2) a grossly inadequate
selling price; and (3) a causal connection between the defect and the grossly inadequate selling
price.” Casalicchio v. BOKF, N.A., 951 F.3d 672, 677 n.5 (5th Cir. 2020). The only basis for this
claim is Plaintiffs assertion that he was not the borrower on the loan underlying the foreclosure.
No evidence in the record supports a finding in Plaintiffs favor on any of the three elements.
Rather, the evidence demonstrates that the foreclosure proceedings were without defect and that
the selling price was not grossly inadequate.
2. Wrongful Eviction
The elements of a wrongful eviction claim are: (1) an unexpired lease; (2) “the tenant’s
occupancy of the premises;” (3) “the landlord’s eviction of the tenant;” and (4) damages. St.
Anthony's Minor Emergency Ctr., L.L.C. v. Ross Nicholson 2000 Separate Prop. Tr., 567 S.W.
3d 792, 797 n.4 (Tex. App.—Houston [14th Dist.] 2018); see also Tex. Prop. Code § 92.0081.
Plaintiff claims to be the owner of the Property, not a tenant. Furthermore, the evidence shows
that the eviction was authorized by court order.
3. Violation of the FDCPA
The FDCPA protects against abusive debt collection practices. See 15 U.S.C. § 1692.
Plaintiff alleges that Defendants violated the FDCPA by collecting a debt that Plaintiff did not
owe. Nothing in the evidence indicates that Defendants collected or attempted to collect any

8/12

Case 4:19-cv-03359 Document 34 Filed on 07/13/20 in TXSD Page 9 of 12

debt. Rather, U.S. Bank Trust enforced a valid lien on the Property.
4. Trespass
“Trespass to real property is an unauthorized entry upon the land of another.” Envtl.
Processing Sys., L.C. v. FPL Farming Ltd., 457 S.W.3d 414, 422 (Tex. 2015)(alteration
omitted)(quoting Barnes v. Mathis, 353 S.W.3d 760, 764 (Tex. 2011)). Here, the evidence
demonstrates that the entry upon Plaintiffs Property was authorized by court order.
5. Invasion ofPrivacy
Invasion of privacy is a cause of action that prohibits several different types of tortious
conduct. Tex. Health Res. v. Pham, No. 05-15-01283-CV, 2016 WL 4205732, at *6 (Tex.
App.—Dallas Aug. 3, 2016, no pet.). Although Plaintiff did not specify what facts gave rise to
his claim, the only variety with possible application here requires evidence of an intentional
intrusion upon one’s “solitude, seclusion, or private affairs or concerns” that a reasonable person
would find highly offensive. Webb v. Glenbrook Owners Ass’n, Inc., 298 S.W.3d 374, 387 (Tex.
App.—Dallas 2009, no pet.) The only discemable basis in fact for this claim is Plaintiffs
eviction. As the eviction was authorized by court order, no evidence in the record supports a
finding that the intrusion on the Property would highly offend a reasonable person.
6. Violation of Texas Penal Code § 22.04
Texas Penal Code § 22.04 makes it illegal to cause injury to an elderly person, a disabled
person, or a child. However, the Texas Penal Code “generally do[es] not create private rights of
action.” Tex. Health Res., 2016 WL 4205732, at *8 (citing A.H. Belo Corp. v. Corcoran, 52
S.W.3d 375, 379 (Tex. App.—Houston [1st Dist.] 2001, pet. denied)). Plaintiff has identified no
source of a private right of action for the abuse he alleged. Moreover, no evidence reflects any
abusive act by Defendants.

9/12

Case 4:19-cv-03359 Document 34 Filed on 07/13/20 in TXSD Page 10 of 12

7. Violation of the Automatic Stay in Bankruptcy
When a voluntary petition for bankruptcy is filed, an automatic stay prevents, among
other actions, “the enforcement, against the debtor or against property of the estate, of a
judgment obtained before the commencement of the [bankruptcy] case. ”11 U.S.C § 362(a)(2).
No evidence demonstrates that Defendants took any action related to the enforcement of the
mortgage lien between the filing of Plaintiffs bankruptcy petition and the dismissal of his
bankruptcy case. The voicemail from U.S. Bank Trust’s attorney conferring with Plaintiff on its
motion seeking relief from the automatic stay was required by court rules and was not an act in
violation of the stay.
8. Conversion
Conversion is defined as “the wrongful exercise of dominion and control over another’s
property in denial of or inconsistent with his rights.” Johnson v. Brewer & Pritchard, P.C., 73
S.W.3d 193, 210 n.44 (Tex. 2002) (quoting Green Int’l, Inc. v. Solis, 951 S.W.2d 384, 391 (Tex.
1997)). The Court broadly reads Plaintiffs complaint to allege a conversion claim related to the
damage to and/or looting of his personal property that occurred after it was moved outside.
Plaintiff produced no evidence that the removal of his personal property from his home was in
denial or inconsistent with his rights. In fact, it was authorized by court order.
9. Negligence
The elements of a negligence cause of action are: (1) a legal duty; (2) a breach of the
duty; and (3) damages proximately caused by the breach. Martinez v. Walgreen Co., 935 F.3d
396, 399 (5th Cir. 2019) (applying Texas law). Plaintiff failed to plead facts or present evidence
in support of any of the three elements of negligence.

10/12

Case 4:19-cv-03359 Document 34 Filed on 07/13/20 in TXSD Page 11 of 12

10. Violation of a Constitutional Right
A plaintiff may seek redress for a constitutional violation under 42 U.S.C. § 1983. To do
so, the plaintiff must establish that the defendant acted under the color of state law. Moody v.
Farrell, 868 F.3d 348, 351 (5th Cir. 2017). Plaintiff alleged that he was detained or restrained
from entering his home. Be that as it may, Plaintiff has neither alleged nor produced evidence
that Defendants were state actors.
III. Conclusion
At the summary judgment stage, Plaintiff must produce evidence in support of each
element of every cause of action. Plaintiff failed to meet his summary judgment burden, and
Defendants are entitled to judgment as a matter of law on all of Plaintiff s claims
For the foregoing reasons, the Magistrate Judge hereby recommends that the District
Judge DENY Plaintiffs Motion for Default Judgment and GRANT Defendants’ Motion for
Summary Judgment. (Dkt. Nos. 10, 12.)
Notice of Right to Object
The Clerk shall send copies of this Memorandum and Recommendation to the respective
parties who have fourteen days from the receipt thereof to file written objections thereto pursuant
to Federal Rule of Civil Procedure 72(b) and General Order 2002-13. Failure to file written
objections within the time period mentioned shall bar an aggrieved party from attacking the
factual findings and legal conclusions on appeal.
The original of any written objections shall be filed with the United States District Clerk
electronically. Copies of such objections shall be mailed to opposing parties and to the chambers
of the undersigned, 515 Rusk, Suite 7019, Houston, Texas 77002.

11 / 12

Case 4:19-cv-03359 Document 34 Filed on 07/13/20 in TXSD Page 12 of 12

SIGNED this 13th day of July, 2020.

Sam S. Sheldon
United States Magistrate Judge

12/12

Additional material
from this filing is
available in the
Clerk's Office.

